 AUDIT OF BANK MIDWEST, NA
RTC MORTGAGE TRUST 1995-SN2



      Audit Report No. 99-021
          April 15, 1999




     OFFICE OF AUDITS

OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation
Washington, D.C. 20434                                                                         Office of Inspector General



                                                                                           April 15, 1999


   MEMORANDUM TO:                     John F. Bovenzi, Director
                                      Division of Resolutions and Receiverships




   FROM:                              David H. Loewenstein
                                      Assistant Inspector General



   SUBJECT:                           Bank Midwest, NA - RTC Mortgage Trust 1995-SN2
                                      (Audit Report No. 99-021)

   The OIG completed an audit of Bank Midwest, NA, the trust servicer for the RTC Mortgage
   Trust 1995-SN2. The trust, created on September 1, 1995, consists of a Class A Certificate
   Holder, Chillicothe Properties, Inc., and a Class B Certificate Holder, the Resolution Trust
   Corporation (RTC).1 The Division of Resolutions and Receiverships (DRR) is responsible for the
   oversight of the trust. DRR contracted with Aldridge, Eastman, and Waltch (AEW) to assist
   DRR in its oversight responsibilities and to oversee RTC’s interest in the SN-Series transactions.
   Bank Midwest, in addition to being the asset servicer for the trust, was controlled by the trustee of
   Chillicothe Properties, the Dickinson Financial Corporation.


   DRR management contacted the Office of Inspector General requesting audits of various trusts.
   We selected the 1995-SN2 trust for review because of the close relationship between Chillicothe
   Properties and the trust servicer.




   1
     In accordance with the RTC Completion Act of 1993, the RTC ceased to exist on December 31, 1995. Responsibility
   for all RTC-related work transferred to the FDIC as of that date.

                                                           1
BACKGROUND
The RTC, acting in its corporate capacity and its capacity as conservator or receiver, had the
authority to create a trust that sold, through a competitive bid sale, certificates representing a
percentage of beneficial ownership in that trust. The 1995-SN Series consisted of five pools of
selected sub-performing and non-performing commercial mortgage loans of several depository
institutions.


The RTC Mortgage Trust 1995-SN2 was organized as a limited purpose Delaware trust. One of the
purposes of the trust was to dispose of the assets purchased from the RTC as promptly as possible in
a manner that maximized economic return. On September 1, 1995, the RTC entered into a deposit
trust agreement with the owner trustee, Wilmington Trust Company. The owner trustee is
responsible for ensuring that all parties to the transaction fulfill their respective obligations under the
deposit trust agreement. In exchange for the assets, the RTC received from the owner trustee two
types of equity certificates - the controlling Class A Certificate and the non-controlling Class B
Certificate. The RTC, in turn, sold the Class A Certificate to the winning bidder, Chillicothe
Properties, Inc. The RTC held the Class B Certificate.


The Class A Certificate entitled Chillicothe Properties to 49 percent of the income generated by
the trust and responsibility for the daily operations of the trust. In connection with the purchase
of the Class A Certificate, Chillicothe Properties entered into a servicing agreement with Bank
Midwest located in Kansas City, Missouri, to service mortgage loans and manage, market, and
dispose of the trust assets.


It is important to note that the Class A Certificate Holder, Chillicothe Properties, and the trust
servicer, Bank Midwest, are related entities. That is, Bank Midwest is a subsidiary of Dickinson
Financial Corporation. The founder of Dickinson Financial Corporation also created Chillicothe
Properties as a trust for his children, in which he acted as the trustee. Upon his death in February
1997, control of Chillicothe Properties trust passed to his children. In addition, his interest in
Bank Midwest and other entities within Dickinson Financial Corporation passed to his children
and widow. Bank Midwest acts as the trust servicer and maintains the trust’s bank accounts.
Figure 1 illustrates these relationships.


                                                    2
Figure 1: Relationship of Related Parties




                          RTC Mortgage
                          Trust 1995-SN2




    Resolution Trust                                   Chillicothe                     Dickinson Financial
      Corporation,                                  Properties, Inc.                      Corporation
   Class B Certificate                             Class A Certificate
         Holder                                          Holder
  (51 percent interest)                           (49 percent interest)




                                                              Bank Midwest, NA
                                                       Servicing
                                                       Operations
                                                                          Bank/Loan
                                                                          Operations




                            Contractual Relationship


                            Common Ownership




Source: OIG Analysis


                                                       3
Chillicothe Properties purchased 49 percent of the trust for $8.2 million. The Class B Certificate
(which transferred from the RTC to the FDIC as of December 31, 1995) had a 51 percent interest
in the trust. The trust, pursuant to an agreement with State Street Bank (the bond trustee), issued
$22 million of commercial loan-backed bonds to the RTC, which were secured by a collateral
assignment of the trust assets to the bond trustee.


OBJECTIVE, SCOPE, AND METHODOLOGY
We performed an audit of the trust servicer’s compliance with the agreements relating to the RTC
Mortgage Trust 1995-SN2 for the period of September 1, 1995 through April 30, 1998. The
objective of the audit was to determine whether Bank Midwest, as the trust servicer, properly
reported income and expenses and made appropriate bond payments and distributions.


We interviewed FDIC personnel from DRR’s Asset Management Group to become familiar with the
nature of the transaction. To understand the process and controls for collecting, reporting, and
paying expenses, as well as paying off the bond, we interviewed personnel at AEW and Bank
Midwest. Our audit focused on areas we considered to be material to the trust activity or vulnerable
to noncompliance. During our audit, we judgmentally selected samples of expense payments, asset
dispositions, and equity distributions to verify whether Bank Midwest properly accounted for these
transactions in accordance with the agreements. We also determined whether Bank Midwest
properly accounted for receipts and paid off the bond before making equity distributions. At the
conclusion of our fieldwork, we provided Bank Midwest the preliminary findings. We have
incorporated, as appropriate, their responses in this report.


We did not review the internal control system for the trust servicer, Bank Midwest, because we
concluded that the audit objective could be met more efficiently by conducting substantive tests
rather than placing reliance on their internal control system. We conducted the audit from July 6,
1998 through December 8, 1998 in accordance with generally accepted government auditing
standards.




                                                    4
RESULTS OF AUDIT
Generally, Bank Midwest complied with the provisions of the deposit trust and servicing
agreements and properly accounted for bond payments and equity distributions. However,
Chillicothe Properties and Bank Midwest did not always act in the best interest of the trust. We
identified seven instances that resulted in recommended recoveries totaling $546,274. Most
significantly, Chillicothe Properties, who is ultimately responsible for the operations of the trust,
entered into an improper transaction to reduce the outstanding bond principal and accelerate
equity distributions. Chillicothe Properties sold a participation interest in pool assets to a private
investor. This transaction appeared to violate the terms of the deposit trust agreement and
resulted in additional expenses to the trust of $309,775. In addition, Chillicothe Properties did
not instruct Bank Midwest to establish interest-bearing accounts, as permitted by the trust
agreements. Chillicothe Properties had a fiduciary responsibility to the trust and the FDIC to
maximize the economic return of the trust and should have directed Bank Midwest to establish
interest-bearing accounts or invest the funds in short-term, liquid investments. Because the
trust’s bank accounts were not interest bearing, we estimated that the trust lost $88,902 in
interest income.


During our review of $17.7 million of the $33.5 million in proceeds received during the audit
period, we concluded that Bank Midwest handled loan settlements and asset sales properly, but
did not always deposit the receipts timely. In two instances, Bank Midwest held receipts in a
Loan Clearing Account for an unreasonable amount of time, before depositing the amounts in the
Collections Account. The Loan Clearing Account is a non-trust account. In addition, Bank
Midwest did not transfer four escrow account balances that totaled $42,430 to the Collections
Account once the assets sold.


Furthermore, Chillicothe Properties or Bank Midwest charged improper expenses to the trust in
three instances. During the audit period, total expenditures paid by Bank Midwest with trust
funds totaled approximately $5.6 million. We determined that $2.8 million related to high-risk
areas from which we selected a sample. Based on our review of $743,439, we identified
$147,597 of unallowable expenses. Most significantly, Bank Midwest paid legal fees totaling
$111,946 with trust funds to prepare for a lawsuit against the FDIC. Bank Midwest filed the


                                                  5
lawsuit after the FDIC claims unit denied a claim of warranty breach. The lawsuit alleged
common fraud, misrepresentation, and breach of warranty by the FDIC. The United States
District Court of Missouri dismissed all three counts against the FDIC. In addition, Bank
Midwest improperly paid a consultant $35,000 with trust funds. Amounts paid to an independent
contractor are the responsibility of the servicer, not the trust. Furthermore, Bank Midwest
incorrectly calculated servicing fees resulting in an overpayment totaling $651.


Finally, because the agreements were unclear, Bank Midwest included overstated asset balances
in the calculation of servicing fees.


CHILLICOTHE PROPERTIES DID NOT ALWAYS ACT IN THE BEST INTEREST OF
THE TRUST
The deposit trust agreement required the Class A Certificate Holder to adhere to the fiduciary
duty of a general partner under the Delaware Revised Uniform Limited Partnership Act in its
administration of the trust. As interpreted by the Delaware Court of Chancery, this fiduciary
duty is to exercise the utmost good faith, fairness, and loyalty. Of the $546,274 in recommended
disallowances in our report, we found that $398,677 were based on three instances of Chillicothe
Properties not acting in the best interest of the trust. These three instances are explained below.


Sale of Participation Costs Trust $309,775 in Interest to Participant
Chillicothe Properties’ sale of a participation interest in a pool of assets to a private investor
appears to have violated the terms of the deposit trust agreement in several respects. While this
sale did allow the trust to pay down the bonds earlier than expected, the end result was not in the
best interest of the trust. The prohibited sale resulted in additional expenses of $188,979 to the
trust and lost bond interest income to FDIC totaling $120,796.


The express objective of the trust was to dispose of the trust assets in a manner that maximized
the return to both the FDIC and Chillicothe Properties. The sale of the participation seems to
have violated this objective by increasing trust expenses by $309,775 for interest paid to the
private investor. Under the terms of the participation agreement, the trust would pay the investor
a participation interest rate of 11 percent on the outstanding principal amount of his investment


                                                   6
each month. His original principal amount was $5 million. In addition, the trust would make
payments on the outstanding principal amount from funds received each month from the
mortgagees in the pool of loans. The trust paid the investor $309,775 in interest over the life of
the participation.


There were some offsetting savings to the transaction since the funds generated by the sale of the
participation interest were used to pay down the outstanding bond principal and interest. As a
result of the sale of the participation, the bonds were paid off in December 1996, and the first
equity distribution to the Certificate Holders was made the same month. Had Chillicothe
Properties not directed the servicer to complete this transaction, it appeared that other cash flows
of the trust would have allowed the trust to redeem the bonds fully on March 15, 1997. The
additional interest payment on the bonds for the period from December 1996 through March
1997 would have been $120,796. Therefore, the net additional expense to the trust for the
participation was $188,979. This amount was distributed between the Certificate Holders: 51
percent to the FDIC ($96,379) and 49 percent to Chillicothe Properties ($92,600).


Besides its share of the additional expense, the FDIC as the bondholder lost the $120,796 in
interest that would have accumulated on the bonds if they had not been paid off in December
1996 from funds received as a result of the prohibited transaction. Therefore, the final cost of
the participation to the FDIC was $217,175 for the lost interest plus the additional expense. The
cost to Chillicothe Properties was $92,600 for the additional expense. These two combined for
$309,775, the amount of interest paid to the investor for his investment.


The sale of the participation interest also appears to have violated the deposit trust agreement in
two other ways, which suggest that Chillicothe Properties tried to bypass certain prohibitions of
the agreement. The agreement prohibited Chillicothe Properties from borrowing money to pay
the principal or interest on the bonds. The private investor borrowed the funds used to finance
the purchase of the participation interest from Bank Midwest, which, in addition to being the
trust servicer, was a member of an affiliated group of companies that included Chillicothe
Properties itself. The loan proceeds check, for exactly $5 million, was disbursed directly from
Bank Midwest to the trust at the direction of the investor. The loan from Bank Midwest to the


                                                 7
private investor appeared to be an attempt by Chillicothe Properties to circumvent the
agreement’s prohibition against borrowing to pay off the bond. In addition, the terms of the
participation agreement between the trust and the private investor could also be construed as a
loan. The private investor advanced funds to the trust, which the trust was obligated to return to
the investor in full, plus the interest accrued while the original amount was outstanding.


In its response to this finding, Bank Midwest indicated that more primary than the servicer’s
obligation to dispose of the assets in a manner which maximized the economic return to the
Certificate Holders was the deposit trust agreement’s requirement that assets be disposed of as
promptly as possible. However, Bank Midwest kept possession of the assets after the
participation expired and offered no support that this transaction disposed of the assets more
quickly than a sale of the assets. Instead, Bank Midwest stated that once equity funds were
returned to the Certificate Holders, those funds could be reinvested at a 15 to 20 percent earning
rate. Therefore, it was Bank Midwest's analysis that the earlier equity distributions maximized
the economic return to the Certificate Holders by allowing them to reinvest the money. Making
equity distributions early so the Certificate Holders could reinvest the money was not the
purpose of the trust. In addition, the FDIC was restricted to reinvesting its money at 5 percent.
Therefore, the Bank Midwest’s analysis of the transaction did not treat both Certificate Holders
equitably.


Bank Midwest also denied that the sale of the participation was a disguised borrowing by the trust.
Bank Midwest’s denial is based on the trust’s lack of obligation to the investor’s lender, Bank
Midwest. However, several of the following aspects of the participation transaction suggest a close
relationship between the trust and the investor’s lender:


•   The loan proceeds check was made out to the trust.
•   The same Bank Midwest employee signed the participation assignment on behalf of the lender
    and the trust.
•   Participation payments to the private investor were reduced by the amount of the debt owed to
    the lender.



                                                   8
None of these were addressed in the Bank Midwest response. In addition, the nature of the
participation agreement between the trust and the investor suggested a borrowing of funds. The
investor provided funds to the trust and expected a return of his original principal as well as periodic
payments of interest on his outstanding balance. The servicer characterized this arrangement as a
participation, but it is more accurately characterized as a borrowing.


Recommendation
The Assistant Director, Agreement Management Group, DRR, should:
(1)     Disallow questioned costs of $309,775 and require Bank Midwest to reimburse the trust for
        $309,775. The amount related to the increased expenses of the trust, $188,979, will be
        prorated between the certificate holders, with the FDIC receiving its 51 percent share of this
        amount, or $96,379, through future equity distributions. The amount related to the lost bond
        interest, $120,796, will be reimbursed totally to the FDIC as the bondholder.


Bank Midwest Did Not Establish Interest-Bearing Bank Accounts
Bank Midwest did not establish interest-bearing bank accounts for trust funds. Using Bank
Midwest’s formula for business checking accounts as a conservative estimate, we determined
that the trust had lost $88,902 in interest income during our audit period. During our reviews of
similar trusts, we have observed that servicers earned income on trust funds. Bank Midwest
stated that the agreements permitted the servicer to earn income on the funds but did not require it.


Sections within two of the trust agreements permitted the Chillicothe Properties and Bank
Midwest to establish interest-bearing accounts or invest the trust funds. According to section
8.01(h) of the deposit trust agreement, it is the duty of the Class A Certificate Holder to cause the
servicer to invest any amounts held in the collections account and the deferred maintenance
Account. In addition, the servicing agreement required the servicer to establish and maintain
accounts for the benefit of the trust, which were permitted to bear interest. Section 10.03 of the
deposit trust agreement stated that the amounts on deposit in any account of the trust shall be
invested in eligible investments as directed in writing by the Class A Certificate Holder.
Chillicothe Properties did not direct the servicer to invest the funds held in the trust’s bank
accounts as required by section 8.01(h) of the deposit trust agreement, nor did Bank Midwest


                                                   9
exercise prudent business practice by holding cash in non-income producing accounts. Based on
our review of four similar trust servicers, we noted that each established interest-bearing bank
accounts or invested the funds in eligible investments.


Bank Midwest stated that the specific terms of the servicing agreement that make investment of
funds optional seem to be at odds with the general expectation in the deposit trust agreement that
funds would be invested in interest-bearing accounts. Bank Midwest’s response did not
reference its fiduciary responsibility to the trust and the Certificate Holders.


Recommendations
The Assistant Director, Agreement Management Group, DRR, should:
(2)    Seek $88,902 in reimbursement from the servicer, Bank Midwest, in lost interest income.
       The FDIC will receive its 51 percent share of this amount, or $45,340, through future
       equity distributions.
(3)    Require Bank Midwest to earn interest income on trust funds as permitted by the
       provisions of the agreements.


Bank Midwest Improperly Handled Receipts and Escrow Accounts
Bank Midwest improperly handled escrow account balances and did not deposit receipts in the
collections account in a timely manner. Section 2.06 (a) of the servicing agreement requires that
the servicer deposit receipts in the collections account. According to management, Bank
Midwest as servicer deposits receipts in a loan clearing account held at Bank Midwest. Then,
Bank Midwest’s loan operation section determines how to allocate the amounts received (e.g.,
principal, interest, escrow, and payoff) and notifies the accounting department to transfer that
amount to the collections account. The loan clearing account is a non-trust account. Our audit
identified one instance, where a purchaser of a trust asset wired two installment payments of
$25,000 each on January 26, 1996 and March 6, 1996 to the loan clearing account. Bank
Midwest held these payments in that account until April 9, 1996, when it received the final
payment. Therefore, Bank Midwest held some of those sales proceeds in a non-trust account for
almost 3 months. In another instance, we identified that Bank Midwest did not deposit an
interest payment in the collections account until 15 months after receiving the payment. Bank


                                                  10
Midwest held the interest ($18,524) in the loan clearing account. Bank Midwest should have
better controls over trust funds and deposit all receipts in a trust account when received.


Furthermore, Bank Midwest failed to transfer $42,308 held in four escrow accounts to the
collections account once the assets sold. Section 2.05(a) of the servicing agreement permitted
Bank Midwest to establish escrow accounts to pay related taxes and similar items. However,
once the asset sold, Bank Midwest should have transferred the funds that remained in the escrow
account to the collections account.


Bank Midwest agreed with the finding and provided documentation to support the correction of
these errors. In addition, Bank Midwest stated that it had instituted better communication
between loan officers and loan operations to try to reduce or eliminate the incidence of these
errors in the future.


Recommendation
The Assistant Director, Agreement Management Group, DRR, should:
(4)     Require Bank Midwest to strengthen its controls over the escrow account and the
        handling of receipts. DRR should ensure that Bank Midwest deposits receipts timely and
        transfers remaining funds in the escrow account to the collections account after an asset is
        sold.


BANK MIDWEST CHARGED IMPROPER EXPENSES TO THE TRUST
The servicing agreement described expenses that may be properly charged to the trust accounts. In
three separate instances, Bank Midwest charged $147,597 in improper expenses to the trust. These
instances are explained below.


Legal Expenses Improperly Charged to the Trust
Bank Midwest improperly used trust funds to pay legal expenses totaling $111,946. Chillicothe
Properties incurred these expenses as it prepared for a breach of warranty case against the FDIC.
The servicing agreement’s definition of a Property Protection Expense includes costs and
expenses of prosecuting remedies for breaches of representations and warranties made to the


                                                 11
trust. However, this would not permit Chillicothe Properties to continue to expend funds where
there is no significant likelihood of success or benefit to the trust. Therefore, the legal expenses
incurred should be the responsibility of Chillicothe Properties and not the trust.


Initially, the trust servicer filed a claim with the FDIC Claims Group on March 28, 1996 that
alleged breach of warranty by the FDIC. The FDIC Claims Group denied the claim on July 12,
1996. Then the trust and Chillicothe Properties filed a lawsuit against the FDIC. The plaintiffs
in the lawsuit were the RTC Mortgage Trust 1995-SN2 and Chillicothe Properties, Inc. The
lawsuit filed on September 11, 1996 alleged common fraud, misrepresentation, and breach of
warranty by the FDIC. The lawsuit claimed that the FDIC sold the trust a non-performing loan
secured by an asbestos-contaminated office building. Therefore, the servicer could not market
the building, as the cost of renovations would be significant. On October 9, 1997, the United
States District Court of Missouri dismissed all three counts based on FDIC’s sovereign immunity
defense2. Furthermore, on October 16, 1997 the trust sold the loan associated with the building
without making any renovations to the building.


Chillicothe Properties incurred legal expenses from July 1996 to October 1997 totaling
$149,261. Chillicothe Properties allocated 75 percent ($111,946) of the legal costs to the trust
and 25 percent ($37,315) to itself. Bank Midwest management stated that this was a
conservative allocation of the legal expenses. Bank Midwest could not provide support for the
allocation.


Bank Midwest stated that the OIG apparently applied 20-20 hindsight by stating “there is no
significant likelihood of success or benefit to the trust.” Bank Midwest added that it decided to
pursue the litigation at a time when they were unable to foreclose on the collateral of this loan
due to the extraordinary potential environmental liability that ownership would entail. However,
Bank Midwest failed to address in its response the FDIC Claims Group’s initial denial of the
claim of warranty breach. The FDIC Claims Group denied the claim based on the advice of a

2
 Sovereign immunity is a legal doctrine that generally bars lawsuits against the government. This doctrine acts as a
defense to suits, unless the government, either by statute or otherwise, specifically waives its immunity from suit.



                                                         12
third-party environmental firm. Bank Midwest also stated that they retained the services of
experienced trial attorneys and proceeded on their advice. In its analysis whether to proceed
with the litigation, the experienced trial attorneys should have included the probability of the
FDIC using the sovereign immunity defense.


Recommendation
The Assistant Director, Agreement Management Group, DRR, should:
(5)     Disallow questioned costs of $111,946 for improper legal fees charged to the trust and
        require Bank Midwest to reimburse the trust $111,946. The FDIC will receive its 51 percent
        share of this amount, or $57,092, through future equity distributions.


Compensation for Contract Employee Improperly Charged to Trust
Bank Midwest improperly compensated a consultant with $35,000 in trust funds for work
performed on the sale of a trust asset. Section 2.02 of the servicing agreement stated that the
“ ...Servicer may, at its own expense, contract with any subservicer, or Independent contractor
satisfactory to the Class A Certificate Holder to perform all or any portion of its duties
(emphasis added)....” Based on our evaluation of the transaction, we determined that the
compensation paid to the consultant was the financial responsibility of Bank Midwest rather than
the trust.


Before starting an independent loan brokerage and consulting business, the consultant was
employed by Bank Midwest as a vice president until May 31, 1996. On June 4, 1996, the
Dickinson Financial Corporation and Bank Midwest entered into an Employment Termination
and Consulting Agreement with the employee. A recital listed in the termination agreement
stated that Bank Midwest wished to compensate the employee for years of faithful service, to
fairly compensate the employee for current projects pursued but not yet completed and to retain
the employee’s services as an independent consultant to aid in ongoing and future projects. In
addition, a provision in the termination agreement permitted the consultant to work on the sale of
a trust asset, for a negotiated commission.


The trust was not a party to the employment termination agreement, yet Bank Midwest paid a


                                                  13
1-percent commission to the consultant with trust funds for work performed on the sale of the trust
asset. Bank Midwest also paid an allowable 4-percent commission to a real estate broker in
connection with the sale. The former employee acted as an independent contractor to assist Bank
Midwest with the sale, and the consulting commission should have been the responsibility of Bank
Midwest and not the trust.


Bank Midwest stated that it paid the former employee a 1-percent commission on the sale of the
asset. Based on our review of correspondence relating to the payment, Bank Midwest paid the
former employee a “consultation fee.” The correspondence did not state that Bank Midwest paid a
1-percent commission to a loan broker. Furthermore, Bank Midwest’s response did not address the
employment termination agreement by and among Bank Midwest, Dickinson Financial
Corporation, and the former employee. A recital in the termination agreement stated that Bank
Midwest wanted to compensate the former employee for work not yet finished and to retain the
former employee as an independent consultant.


Recommendation
The Assistant Director, Agreement Management Group, DRR, should:
(6)    Disallow questioned costs of $35,000 for improperly compensating a consultant with
       trust funds, and require Bank Midwest to reimburse the trust for $35,000. The FDIC will
       receive its 51 percent share of this amount, or $17,850, through future equity
       distributions.


Bank Midwest Incorrectly Calculated Servicing Fees
Bank Midwest incorrectly calculated servicing fees, resulting in an overpayment totaling $651.
Section 1.01 of the servicing agreement stated that Bank Midwest would be paid a servicing fee
that accrued at an annual rate equal to 0.5 percent for mortgage loans with a July 1, 1995
principal balance greater than or equal to $1 million and 1 percent for mortgage loans less than
$1 million. The agreement also required Bank Midwest to reduce the total principal balance as
assets were sold. The mortgage loan schedule attached to the assignment and assumption
agreement contained each asset’s principal balance used in the calculation of the monthly
servicing fee.


                                                 14
Bank Midwest failed to reduce the outstanding principal balance for the sale of one asset,
resulting in an overpayment of servicing fees totaling $651. After the completion of our
fieldwork, Bank Midwest reduced the amount due for the August 1998 servicing fee by $651.


Recommendation
The Assistant Director, Agreement Management Group, DRR, should:
(7)    Ensure that the servicer, Bank Midwest, properly calculated servicing fees after the end
       of our audit period, April 30, 1998, and that Bank Midwest properly reimbursed the trust
       $651 during the fieldwork. The FDIC will receive its 51 percent share, or $332, through
       future equity distributions.


THE FDIC SHOULD PURSUE CLARIFICATION OF THE SERVICING AGREEMENT
The language in the servicing agreement is unclear concerning servicing fee calculations for
assets sold with a resulting deficiency, related real estate owned, or loan to facilitate a sale. Bank
Midwest included in the calculation of servicing fees the value of assets sold with a related
deficiency, real estate owned, or loan to facilitate a sale. Section 1.01 of the servicing agreement
stated that Bank Midwest would be paid a servicing fee on each mortgage loan listed on the
attachment to the assignment and assumption agreement which remained outstanding during a
collection period. During the period of September 1, 1995 through April 30, 1998, Bank
Midwest included in the calculation of servicing fees the original value of six sold assets. Bank
Midwest officials stated that if they serviced a deficiency, real estate owned, or a loan to
facilitate after the sale of an asset, then they should receive a servicing fee based on the original
principal balance of the asset.


In most cases, when Bank Midwest disposed of a trust asset, Bank Midwest removed the original
principal balance of that asset from the next month’s calculation of the servicing fee, as required
by the servicing agreement. However, Bank Midwest disposed of the assets listed in table 1, but
did not remove the assets from the calculation of servicing fees because of a related deficiency,
real estate owned, or a loan to facilitate. Instead, Bank Midwest used the asset’s original
principal balance in the calculation of the servicing fee and not the value of the new asset. Table
1 highlights the differences between the original asset value and the amount serviced by Bank


                                                  15
Midwest after the sale of the asset.


It is our interpretation of the servicing agreement that Bank Midwest should not receive a fee for
servicing a deficiency. In addition, Bank Midwest should include the value of the new real estate
owned or loan to facilitate a sale in the calculation of servicing fees instead of the original
principal balance. Had Bank Midwest used this interpretation of the servicing agreement,
servicing fees would have been reduced by $99,866, as shown in table 1.

Table 1: Servicing Fees Calculated on Overstated Asset Balances
                                                             OIG                                    Total for
                                Value of       Bank       Calculation                                Audit
                               New Asset     Midwest          (if                                   Period –
     Asset        Original         or       Calculation Deficiency,               Difference      Sale Date to
   Number          Value       Deficiency   After Sale     then $0)               Per Month        April 1998

       118               $4,516,563   $2,222,830         $1,882              $0         $1,882        $43,286

       144                2,815,000     480,000           1,173            400             773         17,779

       177                1,959,835    1,000,000           817             417             400         10,000

      1038                1,400,000      87,500            583                0            583          2,332

       763                4,232,161     600,000           1,763            500           1,263          1,263

       105               13,082,653    3,000,000          5,451          1,250           4,201         25,206

      Total                 -            -              $11,669         $2,567          $9,102        $99,866
  Source: OIG Analysis

Bank Midwest stated that the trust agreements were silent or unclear relating to the issues
described in the finding. We interpreted the definition of the servicing fee to exclude
deficiencies but agree that the remaining language is unclear. Section 1.01 of the servicing
agreement stated that the “… principal balance as of the Cut-Off Date of each Mortgage Loan
outstanding during such Collection Period (emphasis added)…” should be included in the
calculation of the monthly servicing fee. It is the OIG’s position that once the asset sold or
partially sold the original Mortgage Loan is no longer “outstanding,” but may be replaced by a
loan to facilitate or real estate owned. The servicing agreement did not address these situations.
Because the language in the agreements was unclear concerning the handling of loans to


                                                   16
facilitate and real estate owned after the sale of the asset, we recommend that Chillicothe
Properties and the FDIC negotiate an amendment to the agreement.


Recommendation
The Assistant Director, Agreement Management Group, DRR, should:
(8)     Negotiate with Chillicothe Properties to amend the servicing agreement to clarify the
        method of calculating servicing fees on deficiencies, related real estate owned, and loans to
        facilitate. The amendment should be written to include all servicing fees going forward.


MANAGEMENT RESPONSE AND OIG ANALYSIS
On March 31, 1999, the Deputy Director, Asset Management Branch, DRR, provided a written
response to the draft report.


The Deputy Director, Asset Management Branch agreed to pursue recovery of $425,478 of the
$546,274 in recommendations. In addition, the Deputy Director will pursue settlement of these
findings within 60 days of the audit completion.


The Deputy Director stated that DRR would not pursue collection of the $120,796 in bond interest
payments owed to the FDIC as the bondholder. Although we accept DRR’s management decision,
we are convinced that it is in the best interest of FDIC Corporate and FDIC as Class B Certificate
Holder, to implement the recommendation.


The Corporation’s response to the draft report provided the elements necessary for management
decision on the report’s recommendations. Therefore, no further response to this report is
necessary. Appendix II presents management’s proposed action on our recommendations and
shows that there is management decision for each recommendation in this report.


As a result of our audit, we will report questioned costs of $337,789, FDIC’s share, in our
Semiannual Report to the Congress.




                                                   17
                                                                           APPENDIX I
FDIC
Federal Deposit Insurance Corporation
Washington D.C. 20429                                 Division of Resolutions and Receiverships


DATE:                         March 30, 1999
MEMORANDUM TO:                David H. Loewenstein
                              Assistant Inspector General
                              Office of Inspector General



FROM:                         Gail Patelunas, Deputy Director
                              Asset Management Branch

SUBJECT:                      OIG Draft Report:
                              RTC Mortgage Trust 1995 - S/N2


On February 22, 1999, the Office of Inspector General (OIG) issued its draft report on the
results of an audit of Bank Midwest, NA, the trust servicer for RTC Mortgage Trust 1995 -
S/N2 (Trust), in which the FDIC is the non-controlling Class B Certificateholder. As noted in
your memorandum, OIG selected this Trust for review in response to DRR’s request for an
audit of various trusts. The report concludes that, except as noted below, the Servicer, Bank
Midwest, complied with the provisions of the Deposit Trust Agreement (DTA) and Servicing
Agreement, and properly accounted for cash receipts and bond payments.

As noted in OIG’s draft report, Chillicothe Properties, Inc. (Chillicothe) has full
responsibility for the daily operations of the Trust. Chillicothe hired Bank Midwest, an
affiliated party, to service loans and to manage, market, and dispose of Trust assets. The
FDIC does not have the legal authority to direct the Servicer’s (Bank Midwest, NA) or
Chillicothe’s management of the disposition of the assets held by the Trust through its
interest as the non-controlling Class B Certificateholder. However, the DTA, Servicing
Agreement, and other related documents give FDIC certain rights to protect its interest in
the transaction.

Following are Management’s responses to the findings presented in the audit report.

Chillicothe Did Not Act in the Best Interest of the Trust

The OIG questioned whether Chillicothe acted in the “best interest” of the Trust in certain
situations. The following findings were cited under this general heading.

1. The sale of a $5,000,000 participation interest in a pool of performing loans cost the
   Trust $309,775 in interest paid to the entity purchasing the participation in the loan




                                                     18
  RTC Mortgage Trust 1995 – S/N2 Draft Audit Report Response
  March 30, 1999
  Page 2

   pool. The net cost to the Trust was $188,979, because the Trust paid off the bonds more
   quickly than it would have without proceeds from the sale. The Trust saved $120,796 in
   interest on the bonds. As Certificateholder B in the Trust, FDIC’s 51% share of the
   cost equals $96,379.

   From the perspective of FDIC as Bondholder, the sale of the participation interest
   resulted in lost interest of $120,796 that it would have earned on the bonds had the
   bonds not been repaid from proceeds realized from the sale of a participation interest in
   the loan pool.

   The overall finding totals $309,775 from (a) the additional net cost of $188,979 to the
   Trust of which FDIC’s interest equals $96,379, and (b) $120,796 in interest that FDIC
   would have otherwise earned on the bonds had the bonds been retired without proceeds
   from the sale of the participation.

Management’s response is separated into the two components comprising OIG’s finding.

(a) FDIC’s interest as Certificateholder B in additional Trust expenses of $188,979

Management concurs with the OIG’s recommendation that Bank Midwest reimburse the
Trust $188,979 for the increased expenses to the Trust resulting from the sale of the
participation interest in the pool of loans owned by the Trust. Management will issue a
demand letter within 60 days of issuance of the audit report seeking full reimbursement of
the money.

(b) FDIC’s Interest as Bondholder impacted adversely by the loss of interest income it
 would have earned on the bonds by $120,796.

Management disagrees with the OIG finding that Chillicothe, the Class A Certificateholder,
has an obligation to the Bondholder to maintain the outstanding balance of the Bonds
beyond the soonest possible repayment date. This is contrary to Section 2.01 (b) (iv) and
(v) of the Deposit Trust Agreement, which states that "The purposes for which the Trust is
created and established are …(iv) to service the Mortgage Loans and manage any property
acquired in respect thereof or otherwise included in the Trust Property with the objective of
disposing of the Mortgage Loans and such properties as promptly as possible and in an
orderly manner that maximizes the economic return to the Certificateholders, and (v) to
engage in any activities necessary, convenient, or incidental to the foregoing."
Additionally, since the primary responsibility of the Class A Certificateholder is to the
Trust, and the Class A Certificateholder has no ownership interest in the bonds, then the
bonds cannot be considered a Trust asset. Consequently, Chillicothe has no obligation to
keep the bonds outstanding any longer than necessary.




                                                      19
RTC Mortgage Trust 1995 – S/N2 Draft Audit Report Response
March 30, 1999
Page 3

The OIG did not cite any accounting or regulatory criteria that would cause the sale of an
interest in a pool of loans under the circumstances described in the finding to be considered
a financing arrangement rather than a sale. It is also DRR’s understanding that examiners
from the Division of Supervision reviewed Bank Midwest’s loan and did not find any
problems with the loan from a regulatory perspective.

The OIG states that Bank Midwest did not treat both Certificateholders equitably because
the FDIC was restricted to reinvesting its money at 5 percent. The OIG states that making
equity distributions early so the Certificateholders could reinvest the money was not the
purpose of the Trust and did not maximize the return to both the FDIC and Chillicothe.

The Agreements do not require that Chillicothe consider the different reinvestment
opportunities of the Certificateholders in making any business decision. Specifically,
Section 8.01 of the DTA (which also provides the Class A Certificateholder with the sole
authority and responsibility for the operation and management of the Trust) requires that
the Class A Certificateholder "…service the Mortgage Loans and manage any properties
acquired in respect thereof in accordance with servicing standards for the commercial
mortgage loans and asset management standards for commercial properties and collateral
that are customarily employed by prudent servicers servicing comparable mortgage loans
for their own account and prudent asset managers managing comparable properties and
collateral for their own account and in a manner intended to achieve the purposes of the
Trust set forth in Section 2.01(b)(iv)." This does not require Chillicothe to consult with the
FDIC as Bondholder and determine its reinvestment opportunities prior to retiring the
bonds or for that matter, the FDIC’s reinvestment rate on monies it receives as the Class B
Certificateholder.

2. Bank Midwest did not establish interest bearing bank accounts. Had such accounts
been established, OIG calculates the Trust would have earned an additional $88,902 in
income and FDIC’s share would have been $45,340. OIG recommends FDIC seek
reimbursement of the lost interest income.

Management concurs with OIG's recommendation and will issue a demand letter within 60
days of issuance of the audit report seeking reimbursement of the lost interest income to the
Trust.

3. Bank Midwest should begin earning income on Trust funds as permitted by the
provisions of the agreements.

Management concurs with OIG’s recommendation and will issue a demand letter within 60
days of issuance of the audit report requesting Bank Midwest establish interest-bearing
accounts for Trust funds, so the Trust will begin earning interest on the funds.




                                                     20
RTC Mortgage Trust 1995 – S/N2 Draft Audit Report Response
March 30, 1999
Page 4

4. Bank Midwest should strengthen its controls over the escrow account and the handling
 of receipts. DRR should ensure Bank Midwest deposits receipts timely and transfers
remaining funds in the escrow account to the collections account after an asset is sold.

Management concurs with the recommendation and will issue a demand letter within 60 days
of issuance of the audit report requesting Bank Midwest tighten its controls over the escrow
account and handling of receipts.

Bank Midwest Charged Improper Expenses to the Trust

OIG found three instances where Bank Midwest charged “improper” expenses to the Trust.

5. Bank Midwest sued FDIC over a breach of warranty case when FDIC refused to
repurchase an asset sold to the Trust. OIG recommends DRR disallow questioned costs of
$111,946 for improper legal fees charged to the Trust. FDIC’s 51% share equals $57,092.

Management concurs with the recommendation and will issue a demand letter within 60 days
of issuance of the audit report seeking reimbursement of the legal fees.

6. Bank Midwest improperly charged the Trust $35,000 for a consultant formerly
employed by Bank Midwest to assist a real estate broker close the sale on a loan owned by
the Trust. OIG recommends DRR disallow questioned costs of $35,000 for improperly
compensating a consultant with trust funds and require Bank Midwest to reimburse the
Trust for $35,000. FDIC’s share equals $17,850.

Management concurs with OIG’s recommendation that Bank Midwest reimburse the Trust
$35,000 and will issue a demand letter within 60 days of issuance of the audit report
seeking reimbursement of the funds.

7. Bank Midwest incorrectly calculated servicing fees resulting in the Trust overpaying
Bank Midwest $651. FDIC’s share equals $332. OIG recommends that DRR ensure Bank
Midwest reimbursed the Trust the $651 overpayment and properly calculates servicing fees
after the end of the audit period.
Management concurs with the recommendation and will issue a letter within 60 days after
issuance of the audit report requesting Bank Midwest document its $651 reimbursement to
the Trust. Management will also request its equity partnership oversight contractor to
verify that Bank Midwest is properly calculating the servicing fee.




                                                    21
RTC Mortgage Trust 1995 – S/N2 Draft Audit Report Response
March 30, 1999
Page 5

FDIC Should Pursue Clarification of the Servicing Agreement

8. FDIC should negotiate with Chillicothe Properties to amend the Servicing Agreement
 to clarify the method of calculating servicing fees on deficiencies, related real estate
owned, and loans to facilitate on a going forward basis.

Management concurs with OIG’s recommendation and will issue a demand letter within 60
days of issuance of the audit report requesting Chillicothe Properties amend the Servicing
Agreement to clarify the method of calculating servicing fees on deficiencies, related real
estate owned, and loans to facilitate sale of real estate owned.

We appreciate the professionalism of your staff in carrying out the responsibilities of the
assignment. If you have any questions, please contact Assistant Director Stinchcum at
(202) 898-8939.

cc:     Marilyn Kraus, OIG
        Sean Cassidy, OIG
        Giovanni G. Recchia, DRR
        Douglas Stinchcum, DRR
        Elliott Pinta, Legal
        Henry Abbot, DRR
        Dean Eisenberg, DRR
        Ronald Sommers, DRR
        Jim Mealey, AEW
        Edward Dox, AEW




A: SN2_OIG329.doc




                                                   22
                                                                                                                                                                       Appendix II
                                                                                                                                                                        Page 1 of 2
                                                             MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual reports to the Congress. To
consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are necessary. First, the response must describe for each
recommendation

-         the specific corrective actions already taken, if applicable;
-         corrective actions to be taken together with the expected completion dates for their implementation; and
-         documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any disagreement. In the case of
questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming completion of corrective
actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information for management
decisions is based on management’s written response to our report and subsequent discussions with management representatives.

                                                                                                                                                                      Management
     Rec.                                                                                  Expected                  Documentation that will        Monetary         Decision: Yes or
    Number              Corrective Action: Taken or Planned/Status                      Completion Date               confirm final action          Benefits                No
                The Corporation agreed to seek reimbursement to the trust of
                $188,979 of the $309,775. The Corporation’s prorated share                                               Bank Midwest’s               $96,379
      1                                                                             60 days from final report                                                              Yes
                totaled $96,379. The Corporation stated that they would not                                                distribution           disallowed costs
                pursue collection of the $120,796 of lost bond interest.
                The Corporation agreed with the recommendation. The
                Corporation will seek reimbursement to the trust of $88,902 in                                           Bank Midwest’s               $45,340
      2                                                                             60 days from final report                                                              Yes
                lost interest income to the trust. The Corporation’s prorated                                              distribution           disallowed costs
                share of the lost interest income totaled $45,340.
                The Corporation agreed with the recommendation. The
                                                                                                                     Bank Statement for each
      3         Corporation will issue a demand letter requesting Bank              60 days from final report                                     Not Applicable           Yes
                                                                                                                          trust account
                Midwest establish interest-bearing accounts for trust funds.
                The Corporation agreed with the recommendation. The
                Corporation will issue a demand letter requesting Bank                                               Internal Control procedure
      4                                                                             60 days from final report                                     Not Applicable           Yes
                Midwest tighten its controls over the escrow account and                                                   memorandum
                handling of receipts.




                                                                                          23
                                                                                                                                                         Appendix II
                                                                                                                                                          Page 1 of 2
                                                        MANAGEMENT RESPONSES TO RECOMMENDATIONS


                                                                                                                                                        Management
 Rec.                                                                               Expected              Documentation that will     Monetary         Decision: Yes or
Number           Corrective Action: Taken or Planned/Status                      Completion Date           confirm final action       Benefits                No
         The Corporation agreed with the recommendation. The
         Corporation will seek reimbursement to the trust totaling                                            Bank Midwest’s            $57,092
  5                                                                           60 days from final report                                                      Yes
         $111,946 of improper legal fees. The Corporation’s prorated                                            distribution        disallowed costs
         share of the legal fees totaled $57,092.
         The Corporation agreed with the recommendation. The
         Corporation will seek reimbursement to the trust of $35,000 for                                      Bank Midwest’s            $17,850
  6                                                                           60 days from final report                                                      Yes
         improperly compensating a consultant. The Corporation’s                                                distribution        disallowed costs
         prorated share of the compensation totaled $17,850.
         The Corporation agreed with the recommendation. The
         Corporation will issue a letter requesting that Bank Midwest                                                               $332 disallowed
  7                                                                           60 days from final report       Canceled Check                                 Yes
         document its $651 reimbursement to the trust. The                                                                               costs
         Corporation’s prorated share of the servicing fee totaled $332.
         The Corporation agreed with the recommendation. The
         Corporation will make a good faith effort to cause the Class A
         Certificate Holder to amend the servicing agreement to clarify                                    An amendment to the          Not                  Yes
  8                                                                           60 days from final report
         the method of calculating servicing fees on deficiencies, related                                     agreement             Quantifiable
         real estate owned, and loans to facilitate the sale of real estate
         owned.




                                                                                   24
